HHS/OIG-Audit--"Public Health Service's Identified of Program Management Control Areas for Federal Managers' Financial Integrity Act Evaluation, (A-15-93-00013)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Public Health Service's Identification of Program Management Control
Areas for Federal Managers' Financial Integrity Act Evaluation," (A-15-93-00013)
July 19, 1993
Complete Text of Report is available in PDF format
(1.4 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Public Health Service (PHS) policies
and procedures do not assure that all programs and missions are identified for
management control reviews as required by the Federal Managers' Financial Integrity
Act (FMFIA). As a result, audits have disclosed many programs not subjected
to the management oversight intended by this law. An improved process should
provide reasonable assurance that all major management control weaknesses have
been identified and corrected through effective FMFIA compliance. Our report
contains recommendations for improving this process.